<html>
<title> - ORGANIZATIONAL MEETING</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




 
                         ORGANIZATIONAL MEETING

=======================================================================

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              MEETING HELD
                      WEDNESDAY, JANUARY 28, 2009

                               __________

                               [GRAPHIC] [TIFF OMITTED] TONGRESS.#13
                               

            Small Business Committee Document Number 111-002
Available via the GPO Website: http://www.access.gpo.gov/congress/house


                     U.S. GOVERNMENT PRINTING OFFICE
46-818 PDF                 WASHINGTON DC:  2009
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


                   HOUSE COMMITTEE ON SMALL BUSINESS

                NYDIA M. VELAZQUEZ, New York, Chairwoman

                          DENNIS MOORE, Kansas

                      HEATH SHULER, North Carolina

                     KATHY DAHLKEMPER, Pennsylvania

                         KURT SCHRADER, Oregon

                        ANN KIRKPATRICK, Arizona

                          GLENN NYE, Virginia

                         MICHAEL MICHAUD, Maine

                         MELISSA BEAN, Illinois

                         DAN LIPINSKI, Illinois

                      JASON ALTMIRE, Pennsylvania

                        YVETTE CLARKE, New York

                        BRAD ELLSWORTH, Indiana

                        JOE SESTAK, Pennsylvania

                         BOBBY BRIGHT, Alabama

                        PARKER GRIFFITH, Alabama

                      DEBORAH HALVORSON, Illinois

                  SAM GRAVES, Missouri, Ranking Member

                      ROSCOE G. BARTLETT, Maryland

                         W. TODD AKIN, Missouri

                            STEVE KING, Iowa

                     LYNN A. WESTMORELAND, Georgia

                          LOUIE GOHMERT, Texas

                         MARY FALLIN, Oklahoma

                         VERN BUCHANAN, Florida

                      BLAINE LUETKEMEYER, Missouri

                         AARON SCHOCK, Illinois

                      GLENN THOMPSON, Pennsylvania

                         MIKE COFFMAN, Colorado

                  Michael Day, Majority Staff Director

                 Adam Minehardt, Deputy Staff Director

                      Tim Slattery, Chief Counsel

                  Karen Haas, Minority Staff Director

                                 ______

                                  (ii)

  
?

                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page

Velazquez, Hon. Nydia M..........................................     1
Graves, Hon. Sam.................................................     2

                                APPENDIX


Documents for the Record:
Rules and Procedures Adopted by the Committee on Small Business, 
  U.S. House of Representatives, 111th Congress, 2009-2010.......     7
Oversight Plan of the Committee On Small Business for the One 
  Hundred Eleventh Congress......................................    19

                                 (iii)

  


                         ORGANIZATIONAL MEETING

                              ----------                              


                      WEDNESDAY, JANUARY 28, 2009

                     U.S. House of Representatives,
                               Committee on Small Business,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 1:07 p.m., in Room 
2360, Rayburn House Office Building, Hon. Nydia M. Velazquez 
[Chair of the Committee] Presiding.
    Present: Representatives Velazquez, Moore, Shuler, 
Dahlkemper, Schrader, Kirkpatrick, Nye, Michaud, Bean, 
Lipinski, Altmire, Sestak, Bright, Griffith, Halvorson, Graves, 
Bartlett, Akin, Buchanan, Luetkemeyer, Schock, Thompson and 
Coffman.
    Chairwoman Velazquez. I call the Small Business Committee 
organizational meeting to order.
    I want to first welcome all returning and new members, and 
I want to also recognize Ranking Member Graves in his new role 
with the committee. We all look forward to working with you.
    Let me take this opportunity to introduce the members on my 
side.
    We have Kathy Dahlkemper from Pennsylvania. Ms. Kathy 
Dahlkemper is serving her first time, representing 
Pennsylvania's 3rd District. She is the new Chair of the 
Subcommittee on Regulations and Health Care. After facing 
challenges running her own small business, she is committed to 
creating policy that provides a positive environment for job 
retention and growth.
    Kurt Schrader, Oregon 5. Mr. Kurt Schrader is serving his 
first term as a representative of Oregon's 5th District. He has 
been a public servant to the citizens of Oregon for over 35 
years. He will Chair the Subcommittee on Finance and Tax during 
this Congress.
    Mr. Heath Shuler, an old member returning, represents the 
11th District of North Carolina. He will Chair the Subcommittee 
on Rural Development, Entrepreneurship and Trade in the 111th 
Congress. In the last Congress, Mr. Shuler was the sponsor of 
the Small Energy Efficient Business Act, which was signed into 
law.
    Mrs. Ann Kirkpatrick, Arizona 1st. Mrs. Ann Kirkpatrick is 
serving her first term representing Arizona's 1st District. She 
served in the House of Representatives of Arizona prior to 
coming to Congress. She was her county's first female Deputy 
Attorney and went on to serve as District Attorney for the City 
of Sedona.
    Michael Michaud, Maine's 2nd District. He is currently 
serving his fourth term representing the people of the 2nd 
District of Maine in Congress. He has been active on the 
committee since coming to Congress and is also a leader on 
veterans' issues. He also has continued to be a vocal voice on 
behalf of economic development programs since coming to 
Congress.
    Mr. Jason Altmire, Pennsylvania's 4th District; he will 
continue to Chair the Subcommittee on Investigation and 
Oversight. He was the lead sponsor of the Small Business 
Investment Expansion Act of 2007, which updates the SBA's 
investment programs and encourages more venture capital 
opportunities for small businesses. Prior to coming to 
Congress, he worked as a hospital executive.
    Mr. Joe Sestak, Pennsylvania's 7th District. He was elected 
in 2006. He will continue to serve as the Vice Chair of the 
Small Business Committee in the new Congress. He was lead 
sponsor on the SBA Entrepreneurial Development Programs Act of 
2007, which provides technical assistance for entrepreneurs. 
Prior to coming to Congress, he served in the Navy as a Vice 
Admiral.
    Mrs. Deborah Halvorson, Illinois' 11th. She is serving her 
first term representing the constituents of the 11th District 
of Illinois. She served as the first female State senate 
majority leader in Illinois' history. She has been an advocate 
to promote local businesses around the globe.
    Mr. Glenn Nye, Virginia's 2nd. Mr. Nye is serving his first 
term representing Virginia's 2nd District. He was previously a 
Foreign Service Officer for the U.S. State Department, where he 
served in Eastern Europe and received the Superior Honor Award. 
As a freshman, he has been named Chair of the Subcommittee on 
Contracting and Technology.
    Mr. Bobby Bright, Alabama's 2nd. He is serving his first 
term representing Alabama's 2nd District. Prior to coming to 
Congress, he was the Mayor of Montgomery, Alabama. As Mayor, 
Mr. Bright was able to lift Montgomery from 70th to 30th in a 
ranking of cities experiencing business success.
    The Honorable Parker Griffith, Alabama's 5th, serving his 
first term. He is a retired oncologist, as well as a 
businessman and teacher. While serving in the Alabama State 
senate, he championed legislation promoting research in 
biofuels and advancing health care.
    And now I yield to Mr. Graves for him to introduce his 
members.
    Mr. Graves. Thank you, Madam Chair; and I look forward to 
our working relationship in the committee.
    We have three new members on our side. First of all, I 
would like to introduce Representative Blaine Luetkemeyer, who 
is a fellow Missourian. He worked as a banker and an insurance 
agent prior to coming to Congress. Representative Aaron Schock 
from Illinois, who had a career in real estate management and 
served in the Illinois General Assembly. And Representative 
Glenn Thompson of Pennsylvania, who was a health care executive 
before coming to Congress.
    Also, I welcome back our returning members: Roscoe Bartlett 
from Maryland; Todd Akin, another fellow Missourian; Steve King 
of Iowa; Lynn Westmoreland of Georgia; Louie Gohmert of Texas; 
Mary Fallin of Oklahoma; and Vern Buchanan of Florida. They 
bring a lot of collective experience.
    I think if you just look at the experience level on the 
entire committee, I think we are going to have a real good 
committee and a lot of broad ideas and bring in a lot of good 
experience here. So thank you.
    Chairwoman Velazquez. My colleagues, our Nation's small 
businesses are facing difficulties on numerous fronts; and it 
is important to address these issues in a constructive and 
inclusive manner. My beliefs have always been that there is not 
a Republican or a Democratic approach to small business issues. 
That is why I have made it a priority for this committee to 
work in a bipartisan fashion. During the last 2 years, we did 
just that; and nearly every legislative and oversight matter 
was approached in this way. All members, regardless of party 
affiliation, bring worthy ideas to the table; and this 
committee will continue to be an open forum. With the adoption 
of today's rules package and oversight plan, I believe we are 
making it clear to the small business community that we are 
committed to working together and advocating on their behalf.
    Last Congress, this committee was one of the busiest on all 
of Capitol Hill; and we passed a record number of bills and 
also a record number of bills for minority members as well. 
This year, with the economic challenges facing small 
businesses, we expect to be even busier. I look forward to the 
discussions and debates that I know will transpire over the 
next 2 years.
    At this point, I now yield to Ranking Member, Mr. Graves, 
for his opening statement.
    Mr. Graves. Thank you, Madam Chair.
    As we begin, I do want to say I look forward to continuing 
the tradition of bipartisanship that the Small Business 
Committee has had, particularly on behalf of our Nation's 
entrepreneurs; and I would echo all of your statements. Small 
businesses employ over half of America's workers and create 7 
of 10 jobs in this country. Small firms represent approximately 
99 percent of all the firms in the nation and make up 45 
percent of the Nation's private-sector payroll. They produce 50 
percent of our private and nonfarm gross domestic product.
    It is clear that small businesses are the key to economic 
recovery, and we have to ensure that small businesses remain 
healthy so they can reinvigorate our economy. Policies that 
create tax incentives, spur investment and create jobs will 
jump-start small businesses and get our economy moving again.
    I look forward to working with you, Madam Chair, and the 
members of the committee on both sides of the aisle over the 
next 2 years on these issues that are so important and so 
critical to our recovery.
    Chairwoman Velazquez. I also would like to recognize Ms. 
Melissa Bean from Illinois who has joined the committee.
    Today's first order of business is to adopt the committee 
rules. The adoption of the rules is central to the work we do 
and the tone we set in this body. Perhaps most importantly, 
they must ensure that all points of view are considered and 
that the minority retains their full rights to be heard. In 
this context, the rules adopted at the beginning of the 110th 
Congress were a critical departure from the past. This included 
providing the minority with proportional representation among 
witnesses and allocating the ranking member with full control 
over budget and travel decisions. This makes our committee's 
rule among the most equitable in Congress.
    This year, we are making two substantive changes to improve 
the committee's structure and transparency. The first change is 
to vest each subcommittee with a specific legislative 
jurisdiction. This is important, given the amount of work 
before us and will help allocate our committee's resources and 
members' time more efficiently.
    The second change we are making is to post the committee's 
votes within 48 hours after they were taken. We are not aware 
of any difficulties regarding our votes, and they are all 
available in the committee reports filed with the bills. 
However, I am glad to accept this change because it is 
important to Ranking Member Graves; and it starts the new year 
off in a bipartisan spirit.
    This committee needs to run in a cooperative matter, and I 
believe the best way to do this is to make sure both sides have 
an equal voice and are treated in a way that is fair. Through 
adoption of these rules, we will continue this practice.
    At this point, I would like to yield to Ranking Member 
Graves for any comments he may have on the rules.
    Mr. Graves. Thank you, Madam Chair; And I want to thank you 
and your staff. Your staff, I know, put a lot of work into this 
and worked collaboratively with our staff.
    This package does provide continued protection for the 
rights of the minority and the opportunity for the minority's 
input in the operation of the committee. I want to highlight 
four of those rules.
    First, the rules provide the subcommittee with its 
legislative jurisdiction so that, for the first time, they will 
have the ability to mark up legislation. This means that the 
minority will have increased opportunities to consult with the 
majority about the overall tone and specific provisions of 
legislative initiatives. This is a very important development 
for the committee.
    Second, the chairwoman has also allowed the minority to 
continue to call up to one-third of the nongovernment witnesses 
testifying at the committee hearing. This is going to enhance 
the dialogue presented by the committee with greater diversity 
on opinion as we consider policies to grow America's small 
businesses.
    Third, except in unusual circumstances, the rules provide 
that subpoenas may not be issued unilaterally. Any subpoena 
issued by the chairwoman generally will require a majority vote 
of the committee. This ensures that the minority will continue 
to be consulted on this very important congressional oversight 
function.
    And, fourth, the minority is going to continue to have 
control over one-third of the committee's budget. I thank you 
for that. That shows a lot about how you are going to run the 
committee. This rule goes a long way towards maintaining that 
collegial tone of the committee.
    As a final thought, and the chairwoman pointed it out, I 
want to thank you for graciously accepting our recommendations 
from the minority; and, again, I appreciate you and your 
staff's hard work on this package.
    I yield back.
    Chairwoman Velazquez. Thank you.
    Are there any members that wish to be recognized on the 
rules?
    If no other members wish to be recognized, I will yield to 
the Vice Chair, Mr. Sestak, for a motion.
    Mr. Sestak. I say that we adopt the rules for the 111th 
Congress.
    Chairwoman Velazquez. Does anyone second the motion?
    The question is on the adoption of the rules. All those in 
favor, say aye. All those opposed, say no.
    In the opinion of the Chair, the ayes have it. The rules 
for the Small Business Committee in the United States House of 
Representatives for the 111th Congress are hereby adopted.
    Today's second order of business is to consider the 
committee's oversight plan. This represents our agenda for the 
next 2 years both in terms of oversight and also in terms of 
actions that we will take. I want to thank Ranking Member 
Graves for his input in constructing this plan and for helping 
improve this plan in such key areas such as transportation, 
broadband employment and the economy stimulus.
    The oversight plan provides small businesses and this 
committee's members and staff with a policy framework to work 
within. Ideally, we have incorporated all matters that could 
arise in the next 2 years. But, as history has shown us, this 
is nearly impossible, especially without a magical crystal 
ball.
    The oversight plan prioritizes several items for the 
committee's attention. It includes oversight of Federal actions 
taken in response to the financial crisis. In addition, the 
committee will examine tax proposals, rising health care costs 
and burdensome regulations.
    This plan will provide members with a sense of our 
legislative agenda, including reauthorizing the Small Business 
Administration. I will note that the House fully passed this 
last year, but the other body did not act on it. Through the 
adoption of this plan, we are establishing a framework on how 
we intend to proceed to meet the needs of small businesses.
    I look forward to working with each of you as we begin the 
new Congress.
    At this point, I would like to yield to Ranking Member 
Graves for any comments he may have on the oversight plan.
    Mr. Graves. Thank you, Madam Chair.
    Congressional oversight is vitally important to ensure that 
the functions of government are being properly administered and 
managed. With a growing deficit as well as increasingly complex 
and costly government programs, it is critical to keep a 
watchful eye on expenditures' efficiency and effectiveness.
    This committee has oversight authority over the programs 
and policies of the Small Business Administration, as well as 
issues of importance to America's small businesses like taxes, 
health care, government regulation, energy and access to 
credit.
    Madam Chair, I look forward to working with you over the 
next 2 years to see that the provisions in this oversight plan 
are carried out through the appropriate hearings, studies, 
legislation and correspondence; and I want to thank your for 
incorporating our suggestions into the oversight plan. And my 
favorite part about the chairwoman is she is direct, quick, to 
the point and we get this done quickly; and I appreciate that.
    Chairwoman Velazquez. At this point, I would like to--
    Are there any other members that wish to be recognized on 
the oversight plan?
    If no other members wish to be recognized, I yield to the 
Vice Chair, Mr. Sestak, for a motion.
    Mr. Sestak. Madam Chair, I move that we adopt the plans of 
the 111th Congress.
    Chairwoman Velazquez. Does anyone second the motion?
    Ms. Bean. I second it.
    Chairwoman Velazquez. The question is on the adoption of 
the oversight plan. All those in favor, say aye. All those 
opposed, say no.
    In the opinion of the Chair, the ayes have it. The 
oversight plan for the Small Business Committee in the United 
States House of Representatives for the 111th Congress is 
hereby adopted.
    With that, the Small Business Committee organizational 
meeting is concluded; and the committee is now adjourned.
    But before we adjourn, I just would like to recognize Mr. 
Dennis Moore from Kansas, who has joined us, and Dan Lipinski 
from Illinois.
    Any other new member here, Mr. Graves?
    Mr. Graves. I actually introduced them.
    Chairwoman Velazquez. Okay. Very good.
    Well, the committee is now adjourned. Thank you.
    [Whereupon, at 1:23 p.m., the committee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T6818.001
    
    [GRAPHIC] [TIFF OMITTED] T6818.002
    
    [GRAPHIC] [TIFF OMITTED] T6818.003
    
    [GRAPHIC] [TIFF OMITTED] T6818.004
    
    [GRAPHIC] [TIFF OMITTED] T6818.005
    
    [GRAPHIC] [TIFF OMITTED] T6818.006
    
    [GRAPHIC] [TIFF OMITTED] T6818.007
    
    [GRAPHIC] [TIFF OMITTED] T6818.008
    
    [GRAPHIC] [TIFF OMITTED] T6818.009
    
    [GRAPHIC] [TIFF OMITTED] T6818.010
    
    [GRAPHIC] [TIFF OMITTED] T6818.011
    
    [GRAPHIC] [TIFF OMITTED] T6818.012
    
    [GRAPHIC] [TIFF OMITTED] T6818.013
    
    [GRAPHIC] [TIFF OMITTED] T6818.014
    
    [GRAPHIC] [TIFF OMITTED] T6818.015
    
    [GRAPHIC] [TIFF OMITTED] T6818.016
    
    [GRAPHIC] [TIFF OMITTED] T6818.017
    
    [GRAPHIC] [TIFF OMITTED] T6818.018
    
    [GRAPHIC] [TIFF OMITTED] T6818.019
    
    [GRAPHIC] [TIFF OMITTED] T6818.020
    
    [GRAPHIC] [TIFF OMITTED] T6818.021
    
    [GRAPHIC] [TIFF OMITTED] T6818.022
    
    [GRAPHIC] [TIFF OMITTED] T6818.023
    
    [GRAPHIC] [TIFF OMITTED] T6818.024
    
    [GRAPHIC] [TIFF OMITTED] T6818.025
    
    [GRAPHIC] [TIFF OMITTED] T6818.026
    
    [GRAPHIC] [TIFF OMITTED] T6818.027
    
    [GRAPHIC] [TIFF OMITTED] T6818.028
    
                                 <all>

</pre></body></html>
